IN THE SUPREME COURT OF THE UNITED STATES
October Term 2020
CASE NO. ____________________
______________________________________
Eleventh Circuit Court of Appeals No. 17-14370
Southern District of Florida No. 16-cr-20836-PCH

BERNARD MOORE,
Petitioner,
vs.
THE UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS, ELEVENTH CIRCUIT
WITH INCORPORATED APPENDIX

SHERYL JOYCE LOWENTHAL
CJA Counsel for Petitioner Bernard Moore
Email: sjlowenthal@appeals.net
Florida Bar No. 163475
9130 S Dadeland Blvd. Suite 1511
Miami, Florida 33156-7851
Ph: 305-670-3360

Questions Presented
One and Two
In Rehaif v. United States, this Court held that 18 U.S.C. §§ 922(g) and
924(a)(2) require the government to prove that “the defendant knew he possessed a
firearm and also that he knew he had the relevant status when he possessed it.”
139 S.Ct. 2191, 2194 (2019). One “relevant status” is that the defendant have a
prior conviction for “a crime punishable by imprisonment for a term exceeding one
year.” 18 U.S.C. § 922(g)(1).
There is a direct split in the Circuits in cases that were tried to a jury and
were pending on direct appeal when this Court decided Rehaif. The first two
questions presented by this petition are:
First, whether in determining if the defendant’s substantial rights were
affected by the failure of the indictment to charge, and the government to prove to
the jury, that the defendant knew his relevant status, the courts of appeals may
consider the “entire” record, including a presentence report containing facts about
the defendant’s prior convictions that were not admitted or offered to be admitted
at trial?

i

Second, whether, even if the courts of appeals may consider the entire
record, a court of appeals errs by considering only certain non-trial evidence, and
not considering evidence on the record tending to show that the defendant lacks the
requisite knowledge of his status, all of which violated due process guaranteed by
the Fifth Amendment ?
Three and Four
Whether in affirming Bernard Moore’s conviction and sentence, the United
States Court of Appeals for the Eleventh Circuit has so far departed from the
accepted and usual course of judicial proceedings, and sanctions such a departure
by the district court, as to call for the exercise of this Court’s supervisory powers
in that it violates every notion of reasonableness, fairness, due process, and
common sense, third, to affirm where the Eleventh Circuit violated Moore’s right
to due process under the Fifth Amendment by failing to adhere to its own
precedent, and precedent of this Court concerning his entitlement to relief while his
case was pending on direct review to a change of law? And fourth, to affirm where
there was a warrantless search in violation of the Fourth Amendment?

ii

Table of Contents and Citations
QUESTIONS PRESENTED

i

PETITION FOR WRIT OF CERTIORARI

1

PARTIES TO THE PROCEEDINGS

1

OPINION BELOW

1

STATEMENT OF JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS
Fourth Amendment

3

Fifth Amendment

3

Sixth Amendment

3

Statutes
Title 18, Section 922(g)

4

Title 18, Section 924(a)(2)

4

STATEMENT OF THE CASE AND FACTS
Procedural History

4
6

iii

REASONS FOR GRANTING THE WRIT
12

Reason One:

The Circuits are split on whether, in light of Rehaif, a defendant’s
conviction may be affirmed even though the indictment did not
charge, and the government did not prove at trial, that the defendant
knew his felon status, an essential element of the 18 U.S.C. § 922(g)
offense.
13
Reason Two:
This Court should resolve the split in the circuits as to whether an
appellate court may not use extraneous information that was not
pled or proven at trial, to determine that the defendant had to know,
or must have known, that he knowingly met the status element of the
charge of felon-in-possession of a firearm.
15
Reason Three:
The Eleventh Circuit Reversibly Erred in Affirming Because
Fonseca was Removed From all Facts set out in the PSR, and
Accordingly, Without Fonseca’s Actions and Participation There
was no Conspiracy Involving Bernard Moore.
18
Reason Four:
The Eleventh Circuit has Reversibly Erred by Affirming a Serious
Fundamental Constitutional Error, Upholding the District Court’s
Grossly Erroneous Admission Into Evidence of the DVD of Video
Surveillance on January 6, 2016, Because it Clearly Violated
Moore’s Fourth Amendment Rights as it was Outside the Scope of
the Warrant.
23
CONCLUSION

26

iv

APPENDIX TO THE PETITION

27

United States v. Bernard Moore
954 F.3d 1322 (11th Cir. 2020)
Final Judgment in a Criminal Case
Southern District of Florida No. 16-cr-20836
Docket No. 194
Entered on September 27, 2017
Order of the Eleventh Circuit Court of Appeals
Denying Moore’s Timely-Filed
Petition for Rehearing
Entered on September 10, 2020

TABLE OF CITATIONS
Cases:
Almendarez-Torres v. United States, 523 U.S. 224 (1998)

17

Fahy v. Connecticut, 375 U.S. 85 (1963)

25

Gamble v. United States, 139 S.Ct. 1960 (2019)

13

Johnson v. United States, 520 U.S. 461 (1997)

16

Katz v. United States, 389 U.S. (1967)

24

Neder v. United States, 527 U.S. 1 (1999)

16

Rehaif v. United States, 139 S.Ct. 2191 (2019)

i, ii, 12, 13, 14, 15, 17

United States v. Cook,
Supreme Court Petition from 7th Circuit, August 17, 2020
v

14

United States v. Cotton, 535 U.S. 625 (2002)

16

United States v. Davis, 139 S.Ct. 782 (2019)

11

United States v. Green,
Supreme Court Petition from Fifth Circuit August 28, 2020

14

United States v. Medley,
Supreme Court Petition No. 18-4789 (4th Cir. August 21, 2020)

14, 15

United States v. Nasir, No. S.Ct.No. 18-2888
(3d Cir. Mar 4, 2020) (sua sponte decision to consider case en banc)

14

United States v. Qazi,
Supreme Court Petition from 9th Circuit September 17, 2020

14

United States v. Ross,
Supreme Court Petition No. 20-5405, August 14, 2020

12

United States v. Watts, 519 U.S. 148 (1997)

20

United States v. Reed, 941 F.3d 1018 (11th Cir. 2019)
Supreme Court Petition No. 8619, June 8, 2020

12, 14, 16

United States v. Benamor, 937 F.3d 1182 (9th Cir. 2019)
cert. denied, 140 S.Ct. 818 (2020)

14, 16

United States v. Bennett, 472 F.3d 825 (11th Cir. 2006)

18

United States v. Hollingshed, 940 F.3d 410 (8th Cir. 2019)
cert. denied, No. 19-7630, 2020 WL 1326060)

14, 16

United States v. Huntsberry, 956 F.3d 949 (7th Cir. 2020)

14, 15

United States v. Lara, __ F.3d __ , 2020WL 4668535 (1st Cir. Aug.12 2020)
United States v. Maez, 960 F.3d 949 (7th Cir. 2020)
vi

14

14, 15, 16

United States v. Miller, 954 F.3d 551 (2d Cir. 2020)

14

United States v. Moore, 954 F.3d 1322 (11th Cir. 2020)

1

United States v. Owen, 858 F.2d 1514 (11th Cir. 1988)

18

United States v. Rothenberg, 610 F.3d 621 (11th Cir. 2010)

18

United States v. Spears, 443 F.3d 1358 (11th Cir. 2006)

18

United States v. Vega-Castillo, 540 F.3d 1235 (11th Cir. 2008)
United States v. Ward, 957 F,3d 691 (6th Cir. 2020)
United States v. Williams, 340 F.3d 1231 (11th Cir. 2003)

14, 16
18

Other Authorities:
The United States Constitution
Fourth Amendment

i, 3

Fifth Amendment

i, 3

Sixth Amendment

3, 17

The United States Code
Title 18, Section 2

6, 7

Title 18, Section 922(g)

i, 4, 7, 11, 13, 15, 17

Title 18, Section 924(a)(2)

i, 4

Title 18, Section 3231

2

Title 18, Section 3742(a)

2
vii

Title 21, Section 841(a)(1)

6, 7

Title 21, Section 841 (b)(1)(B)

6

Title 21, Section 841(b)(1)(C)

6, 7

Title 28, Section 1254(1)

2

Rules of the Supreme Court of the United States
Rule 10(a)

2

Rule 13.1

2

Federal Rules of Criminal Procedure
Rules 8(a) and 8(b)

12, 22

Rule 14(a)

22

Rule 32

18

Rule 52(b)

18

Federal Rules of Appellate Procedure
Rule 4(b)

2

ix

PETITION FOR WRIT OF CERTIORARI
PARTIES TO THE PROCEEDINGS
The Petitioner Bernard Moore was a defendant, charged, tried, and convicted
in the Southern District of Florida in Case No. 16-cr-20836-PCH-3. He was an
appellant in the Eleventh Circuit Court of Appeals.
prosecution.

The respondent is/was the

There were three defendants charged in the indictment, Bernard

Moore, Derrick Miller, and Michael Fonseca (with whom Moore had no contact
whatsoever). Miller was tried together with Moore, was convicted and sentenced,
and was a co-appellant in the Eleventh Circuit.
OPINION BELOW
This petition is addressed to the decision of the Eleventh Circuit Court of
Appeals entered on March 31, 2020, United States v. Moore, 954 F.3d 1322 (11th
Cir. 2020), affirming both Moore’s and Miller’s convictions and sentences in the
Southern District of Florida on charges of narcotics trafficking and firearm
possession.
Following a jury trial, final judgment was entered in the district court on
September 27, 2017 (DE-194).

Copies of the Eleventh Circuit opinion, the

judgment of the district court, and the Eleventh Circuit order denying Moore’s
timely-filed petition for rehearing, all are in the appendix filed with this petition.
1

STATEMENT OF JURISDICTION
Final judgment against Bernard Moore was entered in September 2017. The
district court had jurisdiction to enter the judgment pursuant to 18 U.S.C. §3231.
A notice of appeal was timely filed pursuant to FRAP 4(b). The Eleventh Circuit
had jurisdiction over the appeal under 28 U.S.C. §1291, and authority to review
Moore’s challenge to his sentence under 18 U.S.C. §3742(a).
The opinion of the Eleventh Circuit, entered on March 31, 2020, is published
at 954 F.3d 1322.

Moore timely filed a petition for rehearing that was denied on

September 10, 2020. This petition is timely filed pursuant to Supreme Court Rule
13.1.

The jurisdiction of the Court is invoked under 28 U.S.C. §1254(1).

Moreover, this Court has subject matter jurisdiction pursuant to Supreme Court
Rule 10(a).

2

CONSTITUTIONAL and STATUTORY PROVISIONS
Fourth Amendment
The right of the people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and seizures shall not be
violated, and no Warrants shall issue but upon probable cause,
supported by Oath or affirmation, and particularly describing the place
to be searched, and the persons or things to be seized.
Fifth Amendment
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a grand jury, except in
cases arising in the land or naval forces, or in the militia, when in
actual service in time of war or public danger; nor shall any person be
subject to the same offense to be twice put in jeopardy of life or limb,
nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use,
without just compensation.
Sixth Amendment
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by and impartial jury of the state and district
wherein the crime shall have been committed, which district shall
have been previously ascertained by law, and to be informed of the
nature and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for obtaining
witnesses in his favor, and to have the assistance of counsel for his
defense.

3

STATUTORY PROVISIONS
Section 922(g) of Title 18 of the United State Code provides in relevant part
that: It shall be unlawful for any person – (1) who has been convicted in any court
of, a crime punishable by imprisonment for a term exceeding one year …. to ….
possess in or affecting commerce, any firearm or ammunition.
Section 924(a)(2) of Title 18 provides:

Whoever knowingly violates

subsection …(g) of section 922, shall be fined as provided in this title, imprisoned
not more than 10 years, or both.

STATEMENT OF THE CASE AND FACTS
On January 10, 2016, DEA agents executed a federal search warrant for
5645 Northwest 5th Avenue in Miami, Florida (the stash house) and confiscated
three firearms, ammunition, cocaine, heroin, ethylene, hydrocodone, and
marijuana.
It was later alleged that from December 2, 2015 through April 19, 2016,
Michael Fonseca acquired heroin in the Southern District of Florida and sold it to
various individuals, including a confidential informant (CI); and that from
December 2, 2015 through April 19, 2016, the Miami-Dade Police Department and

4

the FBI processed 13 controlled purchases of cocaine, heroin, and marijuana in or
around Fonseca’s Miami residence at 5538 NW 5th Avenue in Miami. Said
controlled buys involved 83.48 grams of marijuana, 2.74 grams of cocaine base,
27.95 grams of cocaine, and 4.2 grams of heroin.
On April 25, 2016, a CI allegedly placed a controlled phone call to Fonseca
to arrange the purchase of a firearm and ammunition, which the CI purchased later
that day for $200.00.
Surveillance footage from January 10, 2016, showed someone who appeared
to be Bernard Moore leaving the stash house shortly before agents arrived to
execute the search warrant. DNA analysis of the Glock firearm found in the
residence revealed Moore's DNA on the trigger. Generally, surveillance footage
showed that the person who appeared to be Moore had dominion and control of the
residence.
It must be noted that Bernard Moore has an identical twin brother. They
share the same DNA, they look alike, and they even have very similar tattoos.
On November 2, 2016, codefendant Derrick Miller was arrested at his
residence. During the arrest, agents recovered 348.57 grams of marijuana, 4.21
grams of heroin, and 2.74 grams of cocaine base from his residence. On that same

5

day Moore was arrested at his residence.

During his arrest, agents recovered

27.95 grams of cocaine and 71.5 grams of marijuana from the residence.

On

November 3, 2016, Fonseca was arrested in Miami-Dade County, Florida.
In November 2016 Fonseca, Miller, Moore were charged in a nine-count
indictment in the Southern District of Florida, with firearm and drug offenses. In
January 2017, Fonseca pleaded guilty to one count and was sentenced to 120
months incarceration.
Subsequently, First and Second Superseding indictments were returned. The
Third Superseding Indictment was returned in April 2017 charging Miller and
Moore in eight counts plus a forfeiture allegation:
Count 1 alleged that from December 2, 2015 to January 10, 2016, Miller and
Moore conspired to possess with intent to distribute cocaine base, heroin, cocaine,
marijuana, ethylene, and hydrocodone, in violation of 21 USC §§841 and 846;
Moore was not charged in Count 2; Count 3 charged Miller and Moore with
the substantive offense of possession on January 10, 2016, of the six controlled
substances named in Count 1, with intent to distribute, in violation of 21 USC
§§841(a)(1), 841(b)(1)(B), 841(b)(1)(C), and 18 USC §2;

6

Count 4 alleged that Miller and Moore, having been previously convicted of
a crime punishable by imprisonment for a term exceeding one year, knowingly
possessed firearms and ammunition in and affective interstate and foreign
commerce in violation of 18 USC §922(g)(1), specifically (a) a Glock 33, 357
caliber firearm; (b) a Kahr P45, .45 caliber firearm; (c) a Beretta PX4 Storm, 9 mm
caliber firearm; and ammunition, specifically (d) 16 rounds of .357 caliber; (e) 27
rounds of .45 caliber; and (f) 12 rounds of 9 mm;
Count 5 charged both Miller and Moore with knowingly possessing a firearm in
furtherance of drug trafficking crimes referenced in Counts 1 and 2, in violation of
18 USC §§924(c)(1)(A)(i) and 2;

Moore was not charged in Counts 6 and 7;

Count 8 charged that on November 2, 2016, Moore knowingly possessed with
intent to distribute cocaine and marijuana in violation of 21 USC §§841(a)(1) and
(b)(1)(c), and 18 USC §2 (Moore was acquitted on this charge); and
finally, the forfeiture allegation as to the three firearms, 69 rounds of
ammunition, and $2,098 in United States currency.
Moore filed a motion in limine to exclude DVR video surveillance evidence
from January 6, 2016, purporting to show Moore and Miller holding handguns as
they exited the efficiency apartment, known as the stash house. The Motion
averred that Counts 4 and 5 charged Moore with possession of a firearm by a con7

victed felon, and with possession of a firearm in furtherance of a drug trafficking
crime on January 10, 2016. A videotape of activity on January 6 was irrelevant to
a firearm offense alleged to have been committed on January 10. Moore asked the
Court to preclude the government from introducing the January 6 video in its case,
because it was not probative for an offense alleged to have occurred on January 10.
The government responded. The motion in limine was denied one week before
trial began.
Miller filed a motion to suppress evidence seized during execution of the search
warrant on January 10, 2016. Moore adopted Miller's motions, objections, and
arguments.

The motion to suppress was denied as to both defendants, as were

Miller's motions to compel disclosure of the CI, and for severance based on
misjoinder. Jury selection was on June 13, 2017. The trial was conducted on June
13, 14 and 19. Deliberations began on the 19th and continued through the 20th.
On the second day of deliberations the jury sent out seven notes with comments
and questions. Note 6 was especially unusual. Certain jurors were worried about
their safety after trial. After speaking with jurors and conferring with counsel, the
district court concluded, and so informed the jurors, that there was no need to be
concerned. Miller and Moore both moved to strike two jurors on grounds of their
being fearful, and to replace them with alternates, but the motion was denied.
8

Thereafter, the jury reached a verdict finding Moore guilty as charged on
Counts 1, 3, 4 and 5 of the Third Superseding Indictment and not guilty on Count 8
(possession with intent to distribute cocaine and marijuana at time of his arrest).
Moore filed a motion for new trial alleging that "jury misconduct tainted the
case;" and that the "guilty verdicts were contrary to the weight of the evidence;”
the evidence did not support the allegations in Counts 4 and 5 that specified
firearms offenses committed on January 10, 2016; and that even though jury
instructions allow prosecutorial flexibility in not having to pinpoint a crime to an
exact date, the instruction that was given allowed the prosecution the unfair and
unlimited ability to prove a crime without specificity.

Counts 4 and 5 were

substantive charges. The issue was clear: did the defendant possess a firearm as
charged on a date certain. The conclusion of insufficient evidence should be
certain. Surveillance video showed someone appearing to be Moore possessing a
firearm on January 6, 2016. There was no evidence of possession of a firearm by
Moore on January 10, the actual date of the offense charged in the Third
Superseding Indictment. The Motion for New Trial argued that the government
elected to charge an offense on a specific date.

The government’s evidence

showed something that occurred on a different date. The evidence did not support
the verdict, ergo, the convictions on Counts 4 and 5 should have been vacated.
9

The government responded that the charged offense was "on or about
January 6." The motion was denied.

The court agreed with the government

that for a charge of firearm possession "on or about January 10, 2016," evidence of
possession on January 6, four days earlier, was "reasonably near" and thus was
sufficient.
Moore responded to the PSI. On September 25, 2017, he was sentenced to 240
months incarceration, four years of supervised release, and ordered to pay an
assessment of $400.00. That same day a notice of appeal and motion to proceed in
forma pauperis were filed. Undersigned was appointed to represent Mr. Moore for
purposes of his appeal.
On August 29, 2018, undersigned filed Moore's Initial Brief raising meritorious
issues Eleventh Circuit Case No. 17-14370, including inter alia, that the evidence
was insufficient; that the district court deprived Moore of his Fourth and Fifth
Amendment rights to due process, a fair trial and the right to be free of
unreasonable searches and seizures when it denied the motion to suppress and the
motion in limine, and permitted the government to introduce at trial DVR-video
footage of events that occurred at the so-called stash house on January 6, 2016; and
that the district court erroneously relied on Moore's prior Florida drug convictions
to impose an enhanced mandatory minimum sentence, rendering the sentence pro10

cedurally and substantively unreasonable. and should be vacated and the cause
remanded for a new sentencing hearing. Additionally, the PSR should be corrected
to reflect the Court's findings at the Sentencing Hearing.
In November 2018, a reply brief was filed on behalf of Bernard Moore.
In January 2019, Moore Supplemented his Brief with the First Step Act, Title IV
Section 401, because his priors no longer qualified for sentence enhancement. In
September 2019, the district court ordered that all mention of Fonseca be removed
from Miller’s PSR (as codefendant, coconspirator, or participant in any offense).
On September 12, 2019, Moore filed a supplemental brief citing two recent
decision of this Court, that entitle him to sentencing relief: United States v. Davis,
139 S. Ct. 782 (2019) applying to Moore's 924(c) conviction requiring reversal,
and

Rehaif v. United States, 139 S.Ct. 1291 (2019) requiring reversal or vacatur

of his 922(g)(1) conviction.
On January 28, 2019, the District Court corrected Moore's PSR, ordering the
removal of all references to Fonseca, specifically paragraphs 3 through 9 and 15.
On March 31, 2020, the Eleventh Circuit AFFIRMED the Judgment.

On May

20, 2020, Moore filed his Petition for Rehearing requesting reconsideration of the
following:

11

No relief for defendants being shackled through their trial; note from jurors,
fearful for their safety after the trial; the Rehaif question; and that none of Moore’s
other issues were addressed in the opinion and were dismissed in footnote 1, as
“meritless,” specifically: insufficient evidence; unreasonable search and seizure;
misjoinder in violation of F.R.Cr.P. 8(b).
On September 10, 2020, the petition for rehearing was denied. Petitioner
now respectfully files this Writ of Certiorari for good cause.

Reasons For Granting The Writ
Reason One
Bernard Moore joins other petitioners in asking this Court to resolve the
circuit split, as well as to resolve important and recurring questions arising from it.
A petition for writ of certiorari is pending in United States v. Reed, No. 8679, June
8, 2020, presenting a circuit split in trial cases in light Rehaif; and a petition in
United States v. Ross, N0. 20-5405, August 14, 2020, representing a circuit split in
guilty-plea cases in light of Rehaif.

12

There is a fundamental issue whether the underlying statute, 18 U.S.C.
§ 922(g) exceeds Congress’ power under the Commerce Clause.

In this, as in

most cases the government relied on the firearm’s manufacture in some other
jurisdiction and its appearance in Florida, a connection to interstate commerce
having nothing to do with Mr. Moore, to prosecute him for later possessing the
firearm in Florida in 2016. His case challenges Congress’ power to criminalize,
and the federal government’s authority to prosecute purely local conduct. See,
Gamble v. United States, 139 S.Ct. 1960, 1980 n.1 (2019) (Thomas, J. Concurring)
(“Indeed, it seems possible that much of Title 18, among other parts of the U.S.
Code, is premised on the Court’s incorrect interpretation of the Commerce Clause
and is thus an incursion into the State’s general criminal jurisdiction and an
imposition on the People’s liberty”).
The Circuits are split on whether, in light of Rehaif, a defendant’s
conviction may be affirmed even though the indictment did not charge,
and the government did not prove at trial, that the defendant knew his
felon status, an essential element of the 18 U.S.C. § 922(g) offense.
Prior to Rehaif, the courts of appeals had uniformly held that the government
had to prove the defendant’s knowledge only as to possession, not his status. See,
e.g., Rehaif, 139 S.Ct. at 2210 n.6 (Alito, Thomas, JJ., dissenting) (citing opinions

13

including the Eleventh Circuit’s decision in Jackson). Indictments and jury trials
pre-dating Rehaif accordingly neither charged nor required the government to
prove knowledge of status as an essential element of the offense. Following
Rehaif, however, the circuits are divided on whether these convictions should be
vacated on direct appeal. The Fourth Circuit vacated such convictions in United
States v. Medley, No. 18-4789 (4th Cir. August 21, 2020); as did United States v.
Cook (No. 18-1343) (7th Cir. August 17, 2020); United States v. Green, (No. 194348) (5th Cir. August 28, 2020); United States v. Qazi (No. 18-10483) (9th Cir.
September 17, 2020).
The Eleventh, and other circuits, have disagreed. There is a clear circuit
split. See. United States v. Reed, 941 F.3d 1018 (11th Cir. 2019), cert. filed, No.
19-8679; United States v. Lara, __ F.3d __, 2020 WL 4668535 (1st Cir. Aug. 12 ,
2020); United States v. Miller, 954 F.3d 551 (2d Cir. 2020); United States v.
Huntsberry, 956 F.3d 949 (7th Cir. 2020); United States v. Ward, 957 F,3d 691 (6th
Cir. 2020); United States v. Maez, 960 F.3d 949 (7th Cir. 2020); United States v.
Hollingshed, 940 F.3d 410 (8th Cir. 2019), cert. denied, No. 19-7630, 2020 WL
1326060); United States v. Benamor, 937 F.3d 1182 (9th Cir. 2019), cert. denied,
140 S.Ct. 818 (2020); see also, United States v. Nasir, No. 18-2888 (3d Cir. Mar 4,
2020) (sua sponte decision to consider case en banc).
14

Reason Two
This Court should resolve the split in the circuits as to whether an
appellate court may not use extraneous information that was not pled or
proven at trial, to determine that the defendant had to know, or must have
known, that he knowingly met the status element of the charge of felon-inpossession of a firearm.
At the heart of the circuit split is whether appellate courts may affirm §
922(g)(1) convictions by relying on facts about a defendant’s prior convictions,
which were not admitted or proven to a jury at trial, on facts about defendant’s
prior convictions which were not admitted or proven to a jury at trial to find that
the defendant must have known his felon status. See, Maez, 960 F.3d at 960 (“The
circuits have taken different approaches to the record for plain-error review of jury
verdicts in light of Rehaif.”); Huntsberry, 956 F.3d at 284 (“We note that our sister
courts have taken different paths on this issue” concerning “what sources of
evidence we, as an appellate court , may properly consider in determining whether
the [Rehaif] errors affected [the defendant’s] substantial rights”).
The Fourth Circuit found it “inappropriate to speculate how [the defendant]
may have defended” against the knowledge-of-status element had that element
been charged in the indictment and a trial, recognizing that “appellate judges are
especially ill-equipped to evaluate a defendant’s state of mind on a cold record.”
15

Medley, 2020 WL 5002706, at *11. The Fourth Circuit thus declined to rely on
evidence not admitted at trial to affirm the defendant’s conviction, explaining:
Although the Government has not had to prove the knowledge-of-status
element beyond a reasonable doubt, it has provided substantial post-trial
evidence supporting [defendant]’s knowledge of his prohibited status,
signifying that [defendant] was incarcerated for over sixteen years after
being convicted of second-degree murder. However, the “essentially
uncontroverted” requirement has not been satisfied. It would be unjust to
conclude that the evidence supporting the knowledge-of status-element is
“essentially uncontroverted” when [defendant] had no reason to contest that
element during pre-trial, trial, or sentencing proceedings.
Id. at *13 (applying the standard set forth in United States v. Cotton, 535 U.S. 625
(2002); Neder v United States, 527 U.S. 1 (1999); Johnson v. United States, 520
U.S. 461 (1997)).
The Eleventh Circuit, in contrast, relied on facts about Moore’s convictions
that were not admitted at trial, including the length of a prior sentence, to surmise
that Moore must have known that he was a felon when he possessed the firearm.
In Maez, 960 F.3d at 960, the Seventh Circuit discussed that four circuits including
the Eleventh, freely consult materials not before the jury, in particular, criminal
histories from the presentence investigation reports without mentioning the
propriety of expanding the record; and also discussing Ward, 957 F.3d 691, 695 &
n.1 (6th Cir. 2020); Hollingshead, 940F.32d at 415-16; Benamor, 937F.3d at 1189;
and Reed, 941 F.3d at 1021. The decision to affirm Moore’s conviction conflicts
16

with the ruling of the Fourth Circuit. Had his case been prosecuted in the Fourth
Circuit, his conviction would have been vacated.
The Eleventh Circuit did not address the Sixth Amendment implications of
its decision to affirm based on information that was not presented to the jury. The
fact of a defendant’s prior conviction and his knowledge of it, are elements of the
felon-in-possesion offense. See, Rehaif, 139 S.Ct. at 2194-96; and AlmendarezTorres v. United States, 523 U.S. 224, 230 (1998) (noting that unlike other statutes, § 922(g)(1) makes recidivism “an offense element”). But the facts about
Moore’s prior convictions that the Eleventh Circuit relied on to infer knowledge of
status, and to affirm his conviction, were not proven to a jury beyond a reasonable
doubt. Nor moreover was Moore afforded an opportunity to present a defense as to
whether he had the requisite knowledge of status at the time of the firearm
possession.

See, Medley, 2020 WL 5002706 at *11-13.

Thus, Moore requests

that this Court review and resolve this important issue that divides the circuits.
Alternatively, Moore asks that the Court hold his petition in abeyance pending
resolution of other petitions raising the same issue.

17

Reason Three
The Eleventh Circuit Reversibly Erred in Affirming Because Fonseca was
Removed From all Facts set out in the PSR, and Accordingly, Without
Fonseca’s Actions and Participation There was no Conspiracy Involving
Bernard Moore.
The record shows that Moore objected to "factual statements" in his PSR,
that "the incidents with Michael Fonseca should not be applicable to him. During
trial, no substantial evidence was offered that proved a conspiratorial relationship
among the two." See, United States v. Spears, 443 F. 3d 1358, 1361 (11th Cir.
2006), wherein the Eleventh Circuit stated that, generally, that Court reviews a
district court's application of Rule 32 de novo; but if the defendant failed to
preserve the objection in the district court, it will review only for plain error. Also
see Fed. R. Crim. P. 52(b) and United States v. Owen, 858 F. 2d 1514, 1517 (11th
Cir. 1988). Defendants must assert challenges to factual statements in the PSR
"with specificity and clarity" which is what Moore did. U.S. v. Bennett, 472 F. 3d
825, 832 (11th Cir. 2006). Furthermore, where a determination turns primarily on
the evaluation of facts that are more accessible to the district court than the court of
appeals, the appellate court will defer to the district court's application of the law to
those facts and apply "clear error" review. United States v. Rothenberg, 610 F. 3d
621, 624 (11th Cr. 2010); and United States v. Williams, 340 F. 3d 1231, 1239
(11th Cir. 2003).
18

Fonseca's alleged conduct is what was said to have started the alleged MillerMoore conspiracy.

Without the activities on December 2, 2015, there is no

conspiracy within the FBI's investigation. Therefore, there is no starting event that
the Eleventh Circuit could consider as beginning a conspiracy on that date between
Miller and Moore, proving that Moore should never have been charged with a
conspiracy that began with conduct from the Fonseca/FBI case. Therefore, during
Moore's sentencing hearing the district court first agreed and sustained the
objections by specifically ordering paragraphs 3 through 9 and 15, to be removed
and stricken from the record. Despite the district court's order to remove those
references, the Probation Office failed to comply and remove those paragraphs.
Thereafter, while his direct appeal was pending, Moore filed a Motion to
Correct Clerical Error; the district court issued an order granting the motion and
directing that said paragraphs be removed. Later, on September 9, 2019, while the
direct appeal was still pending, the district court expanded its previous order that
the record should "clearly reflect that Michael Fonseca is not a codefendant, coconspirator; or participant in any of the offenses of conviction by [Miller] nor Bernard
Moore." Since that order, Moore’s PSR reflects only what took place on January
10, and that should have been the only part of the narrative considered under the

19

reconsideration/rehearing. Without the information concerning Fonseca, Moore
never could have been indicted in this case.
Subsequent to the above-mentioned Court Order, while the direct appeal was
still pending, Moore filed a supplement in the Eleventh Circuit to inform that Court
of the changes in the PSR which affected certain claims raised on appeal.
It is, of course, the function of the district court to make factual findings on
issues by a preponderance of evidence, as it did during the Moore’s sentencing
hearing. Thereafter, the Eleventh Circuit should have adopted the district court's
factual findings and removed the Fonseca/FBI investigation from the "background"
and any narratives in Moore's appellate record. Thus, the Eleventh Circuit should
not have considered any conduct that the district court ordered to be removed from
the record. Due process allowed Moore to make objections concerning the "factual
statements" pursuant to Rule 32. The government agreed, and the court granted or
sustained the objections. For the Eleventh Circuit to simply ignore this as if it
never took place, violated Moore's constitutional rights.
Moreover, codefendant Miller was acquitted of that conduct. And, as this
Court ruled in United States v. Watts, 519 U.S. 148 (1997), perhaps
controversially, a jury verdict of acquittal does not necessarily prevent the
Sentencing Court from considering conduct underlying an acquitted charge, so
20

long as that conduct has been proven by a preponderance of evidence. Here, the
district court determined by a preponderance of evidence that the subject
information should not be used. Yet, the Eleventh Circuit failed to consider that
references to the FBI-Fonseca investigation should not be considered in Moore's
case.
Fonseca's alleged conduct is what was said to have started the Miller-Moore
conspiracy. Had the Eleventh Circuit taken into consideration the district court’s
finding that Fonseca was not a codefendant, coconspirator, or participant in the
offenses, and without allegations of December 2, 2015, that were based solely on
Fonseca's conduct, there was no conspiracy shown.

Therefore, there was no

starting event that the Eleventh Circuit could consider as beginning a conspiracy
on that date between Miller and Moore. It further proves that Moore should not
have ever been charged with a conspiracy that began with conduct from the
Fonseca/FBI case. Ultimately, the Eleventh Circuit is bound by precedent. Even
if a panel of judges disagrees with precedent, they still are obligated to follow it.
See, United States v Vega Castillo 540 F.3d 1235 (11th Cir. 2008) (clarifying the
prior precedent rule).

21

Here, the Eleventh Circuit failed to follow precedent. There is no en banc
decision overruling existing circuit precedent. Furthermore, the Eleventh Circuit
also is bound by this Court’s precedent.
This Court may take judicial notice that the relief that Moore requested, to
correct and revise the PSR to reflect the Court's findings at sentencing, was granted
by the district judge who ordered that the PSR be corrected and revised. Had the
Eleventh Circuit recognized that all references to Michael Fonseca were ordered by
the district court to be removed from the facts in the PSR, that would have had a
direct impact on at least two of the issues, specifically the sufficiency of the
evidence and the Rule 8(a), 8(b), and 14(a) severance issues.
Wherefore, the Eleventh Circuit violated Moore's due process and therefore,
this Court should vacate and reverse the Eleventh Circuit’s judgment, and remand
for de novo review with specific instructions to apply the law stated above.

22

Reason Four
The Eleventh Circuit has Reversibly Erred by Affirming a Serious
Fundamental Constitutional Error, Upholding the District Court’s Grossly
Erroneous Admission Into Evidence of the DVD of Video Surveillance on
January 6, 2016, Because it Clearly Violated Moore’s Fourth Amendment
Rights as it was Outside the Scope of the Warrant.
As the probable cause section of the DEA-sought search warrant for DVR
footage sets forth beginning in paragraph 5, the FBI was only supposed to review
footage of January 8, 2016 and January 10, 2016 - together with the DEA - in order
to determine whether those dates were related to and substantiated their investigation. The FBI’s Lead Agent Justin Spence testified that his investigation had
nothing to do with The House or the DEA's execution of the search warrant (DE241: 111-13).
According to the trial testimony of Forensics Examiner Charles Castillo, the
DEA was able to identify the footage they were authorized to seize easily because
said footage was date- and time-stamped (DE-239:222).

Nevertheless, the

Government knowingly used footage from dates other than January 8, 2016 and
January 10, 2016.

Indisputably, the Government used December 2, 2015;

December 4, 2015; December 12, 2015; December 18, 2015; December 29, 2015;
January 1, 2016; and January 6, 2016 – all of which were outside of the scope of
the warrant (DE-240:46, 47, 76, 77, 78).
23

Agent Picone of the DEA only made copies of the two days targeted in the
warrant (See: DEA 6 Report of Investigation, prepared by DEA Agent Picone on
January 27, 2016). But Agent Spence, who had no nexus to the DEA investigation, submitted an additional 36 days of DVR footage as evidence, based on the
DEA-sought warrant. It is obvious that the FBI clearly and intentionally exceeded
the scope of the DEA-sought warrant in order to make a false connection with the
FBI/Fonseca investigation. A search and seizure outside the scope of a warrant is a
warrantless search, outside judicial process, and lacking prior judicial approval. It
is per se unreasonable under the Fourth Amendment of the United States Constitution. See, Katz v. United States, 389 U.S. 347, 88 S. Ct. 507 (1967).
Without that illegal footage, there was no other evidence to substantiate a
conspiracy that began on or about (by the FBI) on December 2, 2015 and ended on
January 10, 2016.

Agent Spence testified that Moore was not a part of his

investigation of the drug related activities (DE-240; 80, 81).

Therefore, the

Government clearly violated Moore's protection under the Fourth Amendment.
This Court has frequently held that the admission of evidence through an
unreasonable search and seizure constitutes good grounds for reversing a
conviction, especially where such evidence was the sole or primary basis for the
24

conviction, or at least was regarded as having been highly damaging to the
defendant. This Court also has held that that it was not concerned with whether
there was sufficient evidence on which the Defendant could have been convicted
without the evidence complained of, but the question was whether there was a
reasonable possibility that the evidence complained of might have contributed to
the conviction. See, Fahy v. Connecticut, 375 U.S. 85, 11 L. Ed. 2d 171 (1963).
As to this Reason for Granting the Writ, Moore requests that this Court
vacate the conviction and sentence and remand the cause to the Eleventh Circuit
with instructions to remand to the district court for a new trial without admission of
the illegally obtained DVD videos and because of the fact that without that tainted
evidence the outcome of the case Moore would be acquitted.

25

Conclusion
Petitioner respectfully prays that this Honorable Court will Grant relief in
this matter, will issue its most gracious writ, and in the exercise of its supervisory
power over the Eleventh Circuit will vacate and reverse the judgment of the
Eleventh Circuit affirming Bernard Moore’s conviction and sentence, and remand
the cause with instructions to vacate and reverse and to order that Moore be
discharged; alternatively to remand to the Eleventh Circuit with instructions that
instructions that the cause be remanded for a new trial.
Respectfully submitted,
/s/ Sheryl J. Lowenthal
Sheryl J. Lowenthal, Atty at Law
CJA Counsel for Bernard Moore
on Petition for Writ of Certiorari

Dated: December 4, 2020

26

APPENDIX TO THE PETITION

United States v. Bernard Moore
954 F.3d 1322 (11th Cir. 2020)
Final Judgment in a Criminal Case
Southern District of Florida No. 16-cr-20836
Docket No. 194
Entered on September 27, 2017
Order of the Eleventh Circuit Court of Appeals
Denying Moore’s Timely-Filed
Petition for Rehearing
Entered on September 10, 2020

27

Case 1:16-cr-20836-PCH Document 194 Entered on FLSD Docket 09/27/2017 Page 1 of 6

J/JIN ITLCD2458(Rev.09/08)-JudamentïnaCriminalCase

Page1gf.
(uy. .

U N IT E D ST A T E S D IST R TC T C O U R T
Southern D istrictofFlorida
M iam iD ivision

UN ITED STA TES O F A M ER ICA

JUD G M EN T IN A C RIM IN AL CA SE
CaseN tunber:16-20836-CR -H U C K -3
U SM N um ber:79141-004

V.

BERN A R D M O O R E
CounselForD efendant:ScottBennettSaul
CounselForTheUnitedStates:JamieGarman
Coul'tReporter:R obin D ispenzieri

The defendantw asfound guilty on counts 1,3,4 and 5 ofthe Third Supersçding lndictm ent.

Thedefendantisadjudicatedguiltyoftheseoffenses:
TITLE & SECT ION

N A TUR E OF O FFEN SE

O FFEN SE
EN DED

C O UN T
.

Conspiracy to possessw ith the intentto distribute crack

21U.S.C.j846

cocaine,heroin,cocaine,marijuana,ethyloneand

01/10/2016

1

21 U

hydrocodone
Possession with the intentto distribute crack cocaine,

(ljyjtju tlj6

a

S.C.j841(a)(1)

18U.S.C.j922(g)(1)

jyjojae, audhydrocodone
heroin,cocaine,marijuana,etj.
Felon inpossession ofafirearm andammtmition
01/10/2016

18U .

Possession ofafirearm in furtheranceofadrug

.

S.C.j924(c)(1)(A) trajuckizlgcrkme

(jj/jtju tll6

4
5

The defendant is sentenced as provided in the following pages of thisjudgment.The sentence is imposed

pursuantto the Sentencing Refonn A ctof 1984.

Thç defendant has been found notguilty on count 8sss.

lt is ordered that the defendant m ust notify the United States attorney for this district w ithin 30 days of any
change ofnam e,residtnce,or m ailing address untila1lfines,restitution,costs,and specialassessm ents im posed

bythisjudgmentarefullypaid.Iforderedtopayrestitution,thedefendantmustnotifythecourtandUnitedStates
attorney ofm aterialchangesin econom ic circum stances.

D ate ofIm positio ofSentence:9/25/2017

PaulC.H uck
U nited States Senior D istrictJudge
D ate: Septem ber J6'
,2017

Case 1:16-cr-20836-PCH Document 194 Entered on FLSD Docket 09/27/2017 Page 2 of 6

JFCJICFJJD2458(Rev.09/08)-JudamentinaCriminalCase

PaleYpfsju. - .

.

-

DEFENDANT:BERNARD M O ORE
CASE NUM BER:16.20836.CR.HUCK .3
IM PRISO N M EN T

The defendantishereby com mitted to the custody oftheUlzited StatesBlzreau ofPrisonsto be imprisoned fora
total term of 240 m onths,w hich consists of concurrent term s of 180 m onths as to each of Counts O ne,
Three,and Four;follow ed by a consecutive term of60 m onthsasto C ountFive.
The courtm akes the follow ing recom m endationsto the Bureau ofPrisons:
The D efendant be designated to a facility in or as near to South Florida as possible.

The defendantis rem anded to the custody ofthe U nited StatesM arshal.
RE TU R N

1haveexecutedthisjudgmentasfollows:

D efendantdelivered on

at

to

,withacertifiedcopyofthisjudgment.

UN ITED STA TES M A RSHA L

DEPU TY U NITED STA TES M AR SH AL

Case 1:16-cr-20836-PCH Document 194 Entered on FLSD Docket 09/27/2017 Page 3 of 6

JJSDCFLSD2458(Rev.09/08)-JudamentinaCriminalCase

.
P.
h.
FAXgJ;

D EFEN DA N T:BER N A RD M O O lkE
CA SE N U M BER :16.20836.CR .H U C K .3
SU PER V ISED R ELEA SE
Upon release from imprisonm ent,the defendantshallbe on supervised releaseforaterm of4 years.
Thedefendantm ustreportto theprobation office in thedistrictto which the defendantisreleased within 72 hoursofrelease
from the custody oftheBureau ofPrisons.
Thedefendantshallnotcomm itanotherfederal,stateorlocalcrim e.
The defendantshallnotunlawftllly possess a controlled substance.The defendantshallrefrain from any unlawfuluse ofa
controlled substance.The defendantshallsubm itto one drug testwithin 15 days ofrelease from imprisonm entand atleast
two periodicdrug teststhereafter,asdeterm ined by the coul't.
Thedefendantshallnotpossessa firearm ,am m unition,destructive device,or any other dangerousw eapbn.
Thedefendantshallcooperate in thecollection ofDNA as directed by the probation officer.

lfthisjtldgmentimposesa fine orrestitution,itisacondition ofsupelwised releasethatthe defendantpay in accordance
withtheScheduleofPaymentssheetofthisjudgment.
Thedefendantm ustcom ply w ith the standard conditionsthathave been adopted by thiscoul'
taswellaswith any additional
conditionson the attached page.

STA ND A RD C O N DITIO N S O F SUPER V ISIO N

1.Thedefendantshallnotleavethejudicialdistrictwithoutthepermissionofthecourtorprobationofficer;

2.Thedefendantshallreporttotheprobation officerandshallsubm itatruthfuland com pletewrittenreportw ithinthet-lrstfiReen
daysofeachm onth;
3.Thedefendantshallanswertruthfully al1inquiriesbytheprobation ofticerandfollow the instructionsoftheprobation officer;
4.Thedefendantshallsuppol'thisorherdependentsandm eetotherfam ilyresponsibilities;
5.Thedefendantshallw orkregularlyatalawfuloccupation,unlessexcusedbytheprobationofficerforschooling,training,or
otheracceptablereasons;
6.Thedefendantshallnotify theprobation ofticeratleasttendayspriortoany changein residenceoremploym ent;
7.Thedefendantshallregain from excessiveuseofalcoholandshallnotpurchase,possess,use,distribute,oradm inisterany
controlled substanceoranyparaphernaliarelatedto anycontrolled substances,exceptasprescribedbyaphysician;
8.Thedefendantshallnotgequentplaceswherecontrolledsubstancesare illegally sold,used,distributed,oradm inistered;
9.Thedefendantshallnotassociatewith anypersonsengaged in crim inalactivity andshallnotassociatew ith anypersonconvicted
ofafelony,unlessgrantedperm ission to do sobytheprobationofticer;
10.Thedefendantshallpermitaprobationofficertovisithim orheratany timeathomeorelsewhereandshallpermitconfiscation
ofany contraband observed in plainview oftheprobation officer;
11.Thedefendantshallnotifytheprobation ofticerwithin seventp tw ohoursofbeing arrested orquestionedby a1aw enforcem ent
officer;
12.Thedefendantshallnotenterintoanyagreem enttoactasan inform eroraspecialagentofa law enforcem entagencyw ithoutthe
permissionofthecourt;and
13.
A sdirectedbytheprobation officer,thedefendantshallnotifythirdpartiesofrisksthatm ay beoccasioned by thedefendant's
crim inalrecord orpersonalhistory orcharacteristicsand shallperm ittheprobation ofticertom akesuchnotificationsandto
confirm thedefendant'scom pliancewithsuch notitk ationrequirem ent.

Case 1:16-cr-20836-PCH Document 194 Entered on FLSD Docket 09/27/2017 Page 4 of 6
USDC FLSD 2458 (Rev.09/08)-JudgmentinaCriminalCase

Page4of6

DEFEN D AN T:BERN A R D M O O R E
CA SE N UM BER :16-20836-C R-H U CK -3

SPMCI
TIONS OF SUPERVISION
:'
r AL CONDI
m.

Home Detention with Electronic M onitoring - Forthe firstThree (3)monthsafterthedefendantisrelease
from prison he shallresidein HalfW ay Housefollowed by Six (6)monthsofhome confinement.Duringthis
tim r,thedefendantshallrem ain athisplaceofresidence exceptforemploym entand otheractivitiesapproved in
advance,and provide the U.S.Probation Officerwith requested documentation.The defendantshallmaintain a
telephone at his place of residence without Scall forw arding', çcallwaiting',a m odem , lcaller lD',or çcall
back/callblock'services for the above period.The defendant shallwear an electronic m onitoring device and
follow the electronic m onitoring procedures as instructed by the U .S.Probation Officer.The defendantshallpay
forthe electronic m onitoring equipm entatthe prevailing rate orin accordance w ith ability to pay.
:j'-

.

Perm issibleSearch -The defendantshallsubm itto asearch ofhisperson orproperty conducted in a reasonable
m alm erand ata reasonable tim e by the U .S.Probation Officer.
Self-E m ploym entR estriction -The defendantshallobtain priorm itten approvalfrom the Courtbefore entering
into any self-em ploym ent.
Substance A buse Treatm ent- The defendantshallparticipate in an approved treatm entprogram for dl'ug and/or
alcohol abuse and abide by a11 supplem ental conditions of treatm ent. Participation m ay include

inpatient/outpatienttreatment.Thedefendantwillcontributetothecostsofservicesrendered(co-payment)based
on ability to pay oravailability oftllird party paym ent.
'

.j:k.'.'.:

Unpaid Restitution,Fines,or SpecialAssessm ents -Ifthe defendanthas any unpaid am ountofrestitution,
fines, or special assessm ents, the defendant shall notify the probation officer of any m aterial change in the
defbndant's econom ic circum stances thatm ightaffectthe defendant'sability to pay.

Case 1:16-cr-20836-PCH Document 194 Entered on FLSD Docket 09/27/2017 Page 5 of 6
JSDC FLSD 2458 (Rev.09/08)-JudqmentinaCriminalCase

Paae5(lf6

F
.

D EFEN D AN T :BER NA R D M O O RE
CA SE N U M BER :16.20836.CR .H U CK .3
CR IM IN A L M ON ETA RY PEN A LTIE S
The defendantm ustpay the totalcrim inalm onetary penaltiesunderthe schedule ofpaym ents on Sheet6.

TOTALS

A ssessm ent

Fine

R estitution

$400.00

$0.00

$0.00

lf the defendant m akes a partial paym ent, each payee shall receive an approxim ately proportioned
paym ent,unless specified otherwise in the priority order or percentage paym ent colum n below .H ow ever,

pursuantto18U.S.C.j366449,allnonfederalvictifnsmustbepaid beforetheUnitedStatesispaid.
NA M E O F PAY EE

TO TAL
L O SSw

R ESTIT UTIO N
o po su ym

PR IO RITY O R
psu cs xu c x

* Findingsforthe totalam ountoflossesare required underChapters 109A,110,1IOA,and 113A ofTitle 18 for
offenses com m itled on orafter Septem ber 13,1994,butbeforeA pril23,1996.
**Assessm entdueim mediately unlessotherwiseordered by theCotu'
t.

Case 1:16-cr-20836-PCH Document 194 Entered on FLSD Docket 09/27/2017 Page 6 of 6

USQVJr
LSD2458(Rev.09/08)-JudamentinaCrimi
nalCase

Paqç6qf#

DEFEN DANT:BERNARD M OORE
CA SE N UM BER :16.20836.CR .H U CK .3
SCH ED UL E O F PA Y M EN TS

H aving assessed the defendant's ability to pay, paym ent of the total crim inal m onetary penalties is due as
follow s:

A.Lum p sum paym entof$400.00 dueim m ediately.

Unlessthe courthasexpressly ordered otherwise,ifthisjudgmentimposesimprisonment,paymentofcriminal
m onetary penalties is due dtlring im prisonm ent.A 11 crim inalm onetary penalties,except those paym ents m ade
through the Federal Bureau of Prisons'Inm ate Financial Responsibility Program , are m ade to the clerk of the
court.

The defendantshallreceive creditfor a11paym ents previously made toward any criminalm onetazy penalties
im posed.
Thisassessment/fine/restitution ispayableto theCLERK,UNITED STATES COURTS and isto beaddressedtb:
U .S.CLER K 'S O FFIC E
A TTN :FIN A N CIA L SE CTIO N
400 N O R TH M IA M I A VEN U E,R O OM 08N 09
M IA M I,FL O RIDA 33128-7716
'
The assessm ent/fine/restitution is payable im m ediately.The U .S.Bureau of Prisons,U .S.Probation Oftice and
the U .S.A tlorney's O ffice are responsible forthe enforcem entofthisorder.

Defendantand Co-DefendantNamesand CaseNumbers(including defendantnumber),TotalAmotmt,Jointand
SeveralA m ount,and corresponding payee,if appropriate.
CA
SE NU
BER
D
EFEN
D AMNT
AND CO-

DEFENDANT NAM E:
(INCLUDIN G DEFENDANT NUM BER)

JO IN T AN D SEV ER A L

TOTAL AM OUNT xv ouxv

.

The defendantshallforfeitthe defendant's interestin the following property to theU nited States:The Prelim inary

OrderofForfeiturefiledon 7/31/2017(ECF No.166)isincorporated byreferenceherein.

Paymentsshallbeappliedinthefollowingorder:(1)assessment,(2)restitutionprincipal,(3)restitutioninterest,
(4)fineprincipal,(5)fineinterest,(6)communityrestitution,(7)penalties,and(8)costs,includingcostof
prosecution and courtcosts.

Case: 17-14370

Date Filed:
(1 of 2)
09/10/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

September 10, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 17-14370-CC
Case Style: USA v. Bernard Moore
District Court Docket No: 1:16-cr-20836-PCH-3
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Carol R. Lewis, CC/lt
Phone #: (404) 335-6179
REHG-1 Ltr Order Petition Rehearing

Case: 17-14370

Date Filed:
(2 of 2)
09/10/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
______________
No. 17-14370-CC
______________
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
BERNARD MOORE,
DERRICK MILLER,
Defendants - Appellants.
__________________________________________
Appeal from the United States District Court
for the Southern District of Florida
__________________________________________
BEFORE: ROSENBAUM and TJOFLAT, Circuit Judges, and PAULEY*.
PER CURIAM:
The Petition for Panel Rehearing filed by Appellants Bernard Moore and Derrick Miller is
DENIED.

ORD-41

* Honorable William H. Pauley III, Senior United States District Judge for the Southern District of
New York, sitting by designation.

